FDIC Office of Inspector General Press Release: Billings bank president sentenced for $413,000 bank fraud, money laundering scheme
United States Attorney's Office
Western District of Missouri
FOR IMMEDIATE RELEASE
April 1, 2014
Billings bank president sentenced for $413,000 bank fraud, money laundering scheme
SPRINGFIELD, Mo. â Tammy Dickinson, United States Attorney for the Western District of Missouri, announced that the former president of the Bank of Billings in Billings, Mo., was sentenced in federal court today for a $413,000 bank fraud and money laundering scheme.
Matthew D. Spillman, 35, of Nixa, Mo., was sentenced by U.S. District Judge Beth Phillips to 30 months in federal prison without parole. The court also ordered Spillman to pay $179,952 in restitution to the Bank of Billings and $233,952 in restitution to BancInsure.
Spillman was the president of Bank of Billings until he was terminated for misappropriating bank funds. Spillman engaged in a scheme to defraud and embezzle from the Bank of Billings from May 20, 2011, until he was suspended from his position on April 13, 2012.
On Oct. 11, 2013, Spillman pleaded guilty to bank fraud and money laundering. As a part of the fraud scheme, Spillman caused the bank to grant loans in nominee names, and kept the loan proceeds for himself. Spillman also added debt to loans without the borrowersâ knowledge, and converted the additional funds to his own use. He advanced funds on bank customersâ lines of credit, and converted those funds to his own use. Spillman used a bank credit card for personal expenses. He embezzled and converted to his own use loan payments made by bank customers. Spillman also caused the bank to issue cashierâs checks without depositing funds to cover those checks.
By pleading guilty, Spillman acknowledged that the total financial harm he caused the Bank of Billings as a result of his scheme to defraud was $413,905.
This case was prosecuted by Assistant U.S. Attorney Steven M. Mohlhenrich. It was investigated by the FBI, the FDIC-Office of Inspector General and IRS-Criminal Investigation.
# # #